         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

The Department of Energy's
Loan Guarantee to Abound Solar
Manufacturing, LLC




DOE/IG-0907                            April 2014
                                 Department of Energy
                                   Washington, DC 20585
                                        April 14, 2014


MEMORANDUM FOR THE SECRETARY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy's Loan
                         Guarantee to Abound Solar Manufacturing, LLC"

BACKGROUND

The goal of the Department of Energy's Loan Guarantee Program (Program), as defined in the
Energy Policy Act of 2005, is to provide Federal support, in the form of loan guarantees to spur
commercial investments in clean energy projects that use innovative technologies. The
American Recovery and Reinvestment Act of 2009 (Recovery Act) temporarily expanded the
Program by providing loan guarantees for certain renewable energy projects that commenced
construction on or before September 30, 2011. The Recovery Act also appropriated Federal
funds to cover the credit subsidy, funds used to protect the Government against possible
shortfalls in loan repayments. As of December 2013, the Program had approximately $15 billion
in outstanding loan guarantees and $34 billion in remaining loan guarantee authority.

The Department's Credit Review Board, which is responsible for reviewing a loan's terms and
conditions and making a determination regarding the risk of repayment, recommended the
conditional approval of a loan guarantee to Abound Solar Manufacturing, LLC, (Abound) in July
2010. In December 2010, the Program issued the loan guarantee to Abound for up to $400
million to construct and commission thin-film photovoltaic solar panel manufacturing facilities
in Colorado and Indiana capable of annually producing up to 840 megawatts of clean renewable
energy. While the loan was funded by the Federal Financing Bank, the Program was responsible
for loan underwriting and approval, the subsequent loan servicing and monitoring, and the credit
subsidy to reimburse the Federal Financing Bank for any losses on the loan.

In September 2011, Abound failed to meet certain milestones and the Program suspended
funding to the project. Subsequently, Abound filed for bankruptcy in July 2012. Prior to the
filing, the Department had approved the disbursement of approximately $70 million in loan
funds to Abound. Given the significant amount of funding and financial exposure on loan
guarantees, we initiated this audit to examine the circumstances surrounding the Program's
approval and administration of the loan to Abound.
                                                              2


RESULTS OF AUDIT

Our audit revealed that Abound's failure to meet its project milestones and its subsequent
bankruptcy occurred as a result of a combination of market conditions and technical issues that
negatively impacted its operations. These issues included dramatic changes in the solar panel
market that resulted in downward price pressures and performance shortfalls in Abound's solar
panels that negatively affected its sales and delayed its expansion plans. The Department had
identified and evaluated these types of market and technical risks prior to the loan approval and
issuance, concluding that, despite these risks, there remained a reasonable prospect of repayment
of the loan. Additionally, the Department established mitigation measures prior to issuing the
loan to address these risks, such as instituting technical and financial performance metrics prior
to allowing the recipient to drawdown loan funds. However, subsequent to loan closure, market
conditions further deteriorated and technical issues continued, resulting in Abound's failure to
meet requirements of the loan and its ultimate bankruptcy.

Although the Department had identified, considered and taken steps to mitigate the market and
technical risks, and had reduced the financial exposure to the project by suspending funding
when Abound did not meet its project milestones, our audit identified several weaknesses in the
Department's administration of the Abound loan. Specifically, we found the Program had not:

        •    Consulted with the Board concerning a material change in the credit subsidy subsequent
             to the Board's recommendation to approve the loan. Specifically, the Program lowered
             its recovery rating estimate, the potential recovery in the event of default, from 38
             percent to 8.3 percent prior to loan closing. This change increased the credit subsidy
             from $71 million to $96 million, an increase of $25 million in taxpayer funds
             appropriated under the Recovery Act. The reduced recovery rate was significantly lower
             than the rate presented to the Board at conditional commitment 1 in July 2010; however,
             the Board was not made aware of the reduction even though it substantially impacted the
             credit subsidy amount for the transaction. This is significant because according to the
             Program's policies and procedures, the role of the Board is to determine if there is a
             reasonable prospect of loan repayment and make recommendations to the Secretary on
             whether to approve a loan guarantee.

        •    Resolved the conflicting opinions of its advisors regarding Abound's ability to overcome
             technical issues. In January 2011, 1 month after issuing the loan, the Program learned
             that Abound's solar panels were underperforming by as much as 15 percent. As a result,
             Abound reported that its second largest customer returned $2.2 million of product and
             cancelled other orders in December 2010, the same month the loan was issued. While
             the Program's Independent Engineer believed that Abound's plans to address the issues
             were achievable and the project funding should continue, the Program's internal solar
             expert recommended that the Program not approve additional disbursements at that time



1
    A conditional commitment represents a term sheet offered by the Department and accepted by the applicant with
    the understanding of the parties that if the applicant satisfies required terms and conditions, the Department and the
    applicant will execute or finalize a loan guarantee agreement.
                                                3


        based on the number, severity, and frequency of Abound's product and quality control
        issues. One of the most significant of these issues was the potential for panels to spark
        or catch fire. Despite the technical shortfalls and the solar expert's concerns regarding
        Abound's quality control, the Program allowed the project to continue without
        reconciling the conflicting opinions of the Independent Engineer and the solar expert. In
        particular, the Program had not verified the proposed engineering solutions or the
        sufficiency of Abound's long-term quality control and testing programs.

    •   Adequately documented the assumptions in the financial modeling used to support loan
        approval and monitoring. Program officials stated that assumptions used in the models
        fully considered deteriorating market conditions, overcapacity in the solar panel industry
        and Abound's technical performance issues. However, we were unable to verify the
        Program's assertion because the results of key/critical discussions that led to
        assumptions used in the models were not formally documented as part of the Program's
        official records.

    •   Conducted ongoing, formal financial and industrial analyses as part of its monitoring
        activities for the loan as required by the Program's policy manual. Specifically, we
        found no evidence that these types of analyses were regularly performed during
        Abound's disbursement period or that the Program used available financial data to
        determine whether Abound was meeting the financial provisions of its loan.

                                      Contributing Factors

The issues that we identified occurred because the Program had not established comprehensive
policies, procedures and guidance for awarding, monitoring and administering loans.
Specifically, we noted a lack of guidance in the areas of the Board's reconsideration of loans, the
processes for resolving differences in professional opinions among the Program's technical
experts, the nature and timing of financial and industrial analysis, and the management of
distressed loans. For example, the Program had not developed guidance for determining the
materiality of events occurring subsequent to conditional commitment that warrant
reconsideration of the loan by the Board. Additionally, at the time this loan was being
administered, the Program had not developed and implemented a comprehensive records
management system necessary to capture the results of its decision making process or monitoring
efforts.

The need for transparency within the Program was identified in previous Office of Inspector
General reviews. In particular, in our report on The Department of Energy's Loan Guarantee
Program for Clean Energy Technologies (DOE/IG-0849, March 2011) we found that the
Program had not adopted a records management system that imposed structure, consistency and
discipline in the development and retention of loan documentation. While the Program had
taken steps to design and implement such a system, it had not been fully developed or
implemented at the time of our audit. Finally, we discovered that the monitoring of the loan was
adversely affected by staffing issues. In particular, we noted that the individual assigned to
monitor the Abound loan had no prior loan management experience and limited background in
project finance and financial statement analysis.
                                                4



                                    Impact and Path Forward

As a result of the issues we identified, it did not appear that the Program had adequately
managed the risks associated with the Abound loan. To its credit, the Program had made a
number of improvements since it executed the loan guarantee to Abound. For example, the
Program hired additional staff for its Portfolio Management function and developed a number of
procedures for ongoing monitoring. In addition, the Program established a Risk Committee to be
responsible for reviewing and making recommendations regarding significant or material actions
or events affecting individual portfolio assets.

While we recognize its continued efforts to improve, it is imperative that the Program thoroughly
consider project risks and closely monitor the ongoing performance of its loan recipients. This is
especially important given that the Program is faced with the challenge of balancing the goal of
operating a $15 billion loan guarantee portfolio in innovative technologies that are inherently
risky with the Energy Policy Act of 2005's mandate to ensure a reasonable prospect of
repayment. With approximately $34 billion in remaining loan guarantee authority and over $15
billion in assets to be monitored, we believe the Department has an opportunity to implement
needed program enhancements and internal controls designed to increase the likelihood of a
successful outcome. As such, we have made recommendations designed to improve the
Department's implementation of the Program.

MANAGEMENT REACTION

Management did not agree that the identified weaknesses existed in the administration of the
Abound loan. However, after extensive review and analysis of management's assertions, we
concluded that weaknesses, as previously noted, existed in the LGPO's administration of the
Abound loan. Despite its position with regard to our conclusions, management generally
concurred with the report's recommendations and indicated that it would take or had already,
implemented actions to address them. We consider management's comments responsive to the
report's recommendations. Management's official comments are included in Appendix 4.
Management also provided additional technical comments, which have been addressed in the
body of the report.

Attachment

cc: Deputy Secretary
    Chief of Staff
    Executive Director, Loan Programs Office
REPORT ON THE DEPARTMENT OF ENERGY'S LOAN GUARANTEE
TO ABOUND SOLAR MANUFACTURING, LLC

TABLE OF
CONTENTS

Loan Guarantee to Abound Solar

Details of Finding ...................................................................................................................1

Recommendations ..................................................................................................................11

Management Comments and Auditor Response ....................................................................11


Appendices

1. Abound Timeline of Events .................................................................................................... 15

2. Objective, Scope and Methodology ....................................................................................... 19

3. Prior Reports.............................................................................................................................. 21

4. Management Comments .......................................................................................................... 22
THE DEPARTMENT OF ENERGY'S LOAN GUARANTEE TO ABOUND
SOLAR MANUFACTURING, LLC

Background

The Department of Energy's (Department) Loan Guarantee Program (Program), authorized under
the Energy Policy Act of 2005, provides Federal support, in the form of loan guarantees, to spur
commercial investments in clean energy projects that use innovative technologies. Under the
terms of the Energy Policy Act of 2005, the Program is mandated to provide loan guarantees for
innovative projects, which are inherently more risky by nature, while also ensuring that there is
reasonable prospect of repayment by the borrower. The American Recovery and Reinvestment
Act of 2009 (Recovery Act) temporarily expanded the Program by providing loan guarantees for
certain projects that commenced construction on or before September 30, 2011. The Recovery
Act also appropriated Federal funds to cover the credit subsidies, a cost or assessment used to
protect the Government against the risk of potential shortfalls in loan repayments.

For instances in which the Program guarantees 100 percent of the loan obligation, the loan is
funded by the Federal Financing Bank. While the Federal Financing Bank is the lender, the
Program is responsible for loan underwriting and approval, the subsequent loan servicing and
monitoring, and the credit subsidy to reimburse the Federal Financing Bank for any losses on the
loan. In particular, the Program ensures that all requirements for loan disbursements have been
satisfied and approves requests for loan disbursements. In addition, as required by its March
2009 credit policies and procedures, the Program monitors project performance during the
construction and operational stages and processes requests for changes or waivers to loan terms.

Between September 2009 and June 2013, the Program executed 26 loan guarantees with a value
of approximately $16 billion. To date, three recipients filed for bankruptcy with potential losses
estimated to cost taxpayers over $600 million. In addition, other loan recipients have
experienced financial or technical difficulties which could jeopardize the success of the projects.

Abound Solar Manufacturing, LLC, (Abound) applied for a loan in February 2009, to support the
development of eleven manufacturing cells at two facilities that would produce photovoltaic
solar modules using an advanced technology. Specifically, its existing facility in Longmont,
Colorado, would house three production cells, and a second facility proposed for construction in
Tipton, Indiana, would house eight additional cells. Together, these facilities would have the
capability to produce up to approximately nine million solar panels annually. At full operating
levels, the Abound facilities were expected to produce 840 megawatts of photovoltaic panels
each year. Additionally, the project was expected to directly create more than 2,500 jobs during
construction and 1,500 permanent manufacturing and technical jobs. Further, it was expected to
have a ripple effect in the solar industry by creating additional jobs in companies that install
photovoltaic systems, manufacture components, construct solar projects and manufacture
equipment to build out each of the two sites.




Page 1                                                                          Details of Finding
In July 2010, the Department's Credit Review Board, which is responsible for reviewing a loan's
terms and conditions and making a determination regarding the risk of repayment, recommended
that the Secretary conditionally approve a loan guarantee to Abound for up to $400 million. The
conditional commitment 1 contained financial and technical performance requirements to mitigate
risk to the Department. The Department executed the Abound loan guarantee and made the first
loan disbursement in December 2010. In September 2011, Abound defaulted on its loan terms
when it failed to meet financial and construction milestones as a result of ongoing technical
issues. The Program then suspended funding to the project and Abound subsequently filed for
bankruptcy in July 2012, with an outstanding loan balance of over $70 million, including accrued
interest.

Market Conditions and Technical Issues

Our audit revealed that Abound's failure to meet its project milestones and its subsequent
bankruptcy occurred as a result of a combination of market conditions and technical issues that
negatively impacted its operations. These issues included dramatic changes in the solar panel
market that resulted in downward price pressures and performance shortfalls in Abound's solar
panels that negatively affected its sales and delayed its expansion plans. The Department had
identified and evaluated market and technical risks prior to conditional commitment and loan
closing, concluding that, despite these risks, there remained a reasonable prospect of repayment
on the loan. Additionally, the Department established mitigation measures to address these risks,
such as instituting technical and financial performance metrics prior to allowing loan draws.
However, subsequent to loan closure, market conditions and technical issues continued to
deteriorate, resulting in Abound's failure to meet requirements of the loan; the Department's
suspension of funding during February and March 2011, to evaluate Abound's performance
problems; and Abound's ultimate bankruptcy. A summary of events affecting the Abound loan
default is included in Appendix 1.

Administration of Abound Loan

Although the Department had identified, considered and taken steps to mitigate the market and
technical risks and had reduced the financial exposure to the project by suspending funding when
Abound did not meet its project milestones in September 2011, our audit identified several
weaknesses in the Department's administration of the Abound loan. Specifically, we found the
Program had not:

        •    Consulted with the Board concerning a material change in the credit subsidy subsequent
             to the Board's recommendation to approve conditional commitment;

        •    Resolved the conflicting opinions of its advisors regarding Abound's ability to overcome
             technical issues;


1
    A conditional commitment represents a term sheet offered by the Department and accepted by the applicant with
    the understanding of the parties that if the applicant satisfies required terms and conditions, the Department and the
    applicant will execute or finalize a loan guarantee agreement.


Page 2                                                                                            Details of Finding
    •    Adequately documented the assumptions in the financial modeling used to support loan
         approval and monitoring; and

    •    Conducted ongoing, formal financial and industrial analyses as part of its monitoring
         activities for the loan.

                                       Credit Review Board

We found that Program had not consulted with the Board concerning a material change in the
credit subsidy for the loan subsequent to the recommendation to approve conditional
commitment. Specifically, the Program lowered its recovery rating estimate, the potential
recovery in the event of default, from 38 percent originally presented to the Board at loan
commitment to 8.3 percent prior to loan closing and did not consult with the Board concerning
the reduction. The Program's policies and procedures require Board reconsideration when there
are material changes to the terms and conditions of a loan. Additionally, Program officials
asserted that a loan could be resubmitted to the Board if the key credit characteristics of the
transaction materially changed.

The Program asserted that the reduction in the estimated recovery rate was not required to be
brought to the Board's attention because it was not a change in the terms and conditions of the
loan and was not reflective of an actual change in credit characteristics of the transaction.
Instead, the Program claimed that the change in the estimate only reflected a change in
methodology for modeling liquidation scenarios. However, in our opinion, this was a significant
change because the rating represents the potential recovery in the event of default and was a
factor in calculating the credit subsidy associated with the loan. In fact, this change increased the
credit subsidy from approximately $71 million to over $96 million in Recovery Act funds, an
increase of $25 million or 35 percent. By not presenting material changes in credit
characteristics to the Board, the Department is at risk that the Board's crucial role, recommending
whether loans should be made and determining the terms and conditions needed to protect the
Government's interest, could be circumvented.

                                 Conflicting Opinions of Advisors

The Program could not provide evidence that it had resolved differing professional opinions or
addressed concerns of its experts about Abound's ability to correct technical issues that
threatened the success of the project. To address its technical shortfalls, Abound made
modifications to its manufacturing process in February 2011, which negatively impacted project
plans and delayed construction. Once known, the Program suspended Abound's ability to access
loan funds. While the Program's Independent Engineer believed that Abound's plans to address
the issues were achievable and the project funding should continue, the Program's internal solar
expert recommended the Program not approve additional disbursements at that time based on the
number, severity, and frequency of Abound's product and quality control issues.

Further, we found that the internal solar expert had previously expressed concerns to the
Program regarding deficiencies in Abound's quality control. Specifically, 1 month prior to the
on-site visit, the solar expert, following a presentation by Abound on its technical issues and



Page 3                                                                          Details of Finding
proposed fixes, concluded that a multi-month verification program was appropriate before
proceeding with the expansion of the Colorado facility beyond executing its proposed corrections
on one line.

Despite the technical shortfalls and the identified concerns regarding quality control, the
Program approved the restart of disbursements in April 2011, without reconciling the conflicting
opinions of the Independent Engineer and the solar expert. We also noted that the Program had
not verified the efficacy of Abound's proposed engineering solutions or the sufficiency of its
long-term quality control and testing programs before allowing the project to proceed. In
particular, although the Independent Engineer identified actions that had to be completed by
Abound prior to approval of changes, we found that a number of activities necessary to address
the actions had yet to be initiated at the time the restart of disbursements began and therefore
could not be reviewed or verified. In addition, the Independent Engineer had not verified the
adequacy of Abound's quality assurance/control and product testing programs, which were
necessary for it to achieve steady state operations prior to replicating lines. The purpose of these
programs was to ensure that reliable products were being manufactured and would consistently
meet customer expectations. This was especially important because the Program's solar expert
noted that a quality control program was essential and should be clearly defined and under
control prior to increasing production volume and replicating lines. Because the success of
Abound's business plan was based on its ability to replicate its manufacturing lines and ramp up
quickly, ensuring adequate quality assurance/control and testing programs were in place was
crucial for the success of the project.

In response to our review, the Program stated that there were not differences of opinion between
the two experts regarding Abound's technical issues but instead asserted that the differences were
related to funding decisions. In addition, Program officials asserted that the two assessments had
different scopes and the internal solar expert's concerns were addressed within the Independent
Engineer's report and through internal discussions. While we recognize that the overall
conclusions of the two experts differed regarding whether to continue funding at that time, we
believe that the funding recommendations directly correlated to their perception of Abound's
ability to successfully overcome its technical shortfalls and, as previously indicated, the internal
solar expert had serious doubts regarding Abound's commitment to addressing recurring issues.
Further, we also noted that the Independent Engineer's report did not fully cover all of the issues
identified by the internal solar expert. For example, it did not address concerns related to module
certification or staffing. Finally, as indicated earlier, the results of key discussions were not
captured by the Program, and therefore, we could not verify the outcome of internal discussions.

Further, we identified several other instances in which concerns were expressed regarding
Abound's performance; however, there was no documentation demonstrating that the concerns
were addressed and funding to the project continued during this period. In particular, an
informal review conducted in June 2011, by the Program's financial advisor noted that there was
no sustained improvement in the average watts per panel between April and June 2011, and
production remained well below expectations established when the loan was issued. During the
same time period, a Program technical official expressed concerns regarding the amount of
Abound's shipments versus its production, and the Program's solar expert concluded that Abound
was not converging on required production or panel power to achieve the next technical metric
for disbursement. However, the Independent Engineer's report covering the same time period

Page 4                                                                          Details of Finding
contradicted the officials' assertions, and indicated that Abound was on track. As with the
previous example, while there was no evidence demonstrating how the issues were resolved, it
appeared that the Program unilaterally relied on the Independent Engineer's judgment and
funding continued.

In response to our review, the Program indicated that Abound had achieved significant technical
progress during this period, including in panel power. Specifically during that time period,
Abound reported improvements in key technical metrics, including stabilized panel power, panel
yield, production, and panel costs. The Program also stated that subsequent to the period cited,
Abound achieved significant further progress and generally executed on product and process
development in accordance with the conclusions identified previously in the Independent
Engineer's Report. While Abound may have made some improvements during the period, we
noted that the Program's financial advisor concluded that Abound was not where it needed to be
to receive funding for its third manufacturing line. It is important to note that average watts per
panel and production were key technical metrics established by the Program that Abound had to
meet in order to receive additional disbursements. In addition, we found that Abound had
lowered its projections on these critical parameters on three occasions during the disbursement
period. Therefore, even if there was some improvement, the project was not in line with the
project plan/technical roadmap approved at closing.

                                 Financial Modeling Assumptions

Our review found that the Program had not always adequately documented the assumptions in
the financial modeling used to support loan approval and monitoring. The Program's policies
and procedures required changes to assumptions used in its models to be documented; however,
we were unable to confirm that all of the issues we identified were fully, and formally,
considered prior to the loan closing in December 2010, due to a lack of documentation. In
particular, we were unable to verify specifically how assumptions used in the models addressed a
deteriorating market and overcapacity conditions in the solar panel industry, and problems with
Abound's solar panel technical performance between conditional commitment in July 2010, and
loan closing in December 2010. For example, we were unable to verify how the assumptions
used in the financial models fully considered:

    •    Changes in solar panel market. Specifically, the solar panel market had undergone a
         number of dramatic changes such as downward price pressure on solar modules and
         reductions in incentives/subsidies in Europe (a key market for Abound). The Program
         concluded that the combination of these factors affected solar panel manufacturers'
         ability to raise capital and called into question the long-term health of the solar panel
         market. Because Abound needed to raise a significant amount of equity during the
         course of the loan to complete the project, these factors could have a significant impact
         on the success of the project.

    •    Performance shortfalls in Abound solar panels. In October 2010, the Department
         became aware that Abound's solar panels were underperforming by 6 percent below
         expectations. In response, Abound revised its technical projections and delayed ramp
         up of its production lines to make process changes, which pushed out completion of the


Page 5                                                                          Details of Finding
         project and the time period until it would reach positive cash flows by up to 12 months.
         Because the success of Abound's business plan was heavily dependent on its ability to
         ramp up production quickly to achieve economies of scale, delays this early in the
         project could have had long term implications and would have been hard to overcome.
         Abound also revised its technical roadmap and pushed out its target of reaching 80 watt
         modules from the end of 2010 to the end of 2011 or early 2012. This was significant
         because Abound's primary competitor was already producing and selling 76 watt
         modules at the end of 2009.

    •    Increased risk of overcapacity in the market. A market assessment received by the
         Program in November 2010, estimated that there would be 45 to 50 percent overcapacity
         in global production for the next 3 to 5 years. In addition, the report identified that a
         number of major photovoltaic solar manufacturers had announced plans to expand
         capacity by approximately 10 gigawatts between 2010 and 2012, which would double
         global production capacity. These updated projections were concerning because the
         Program indicated that the addition of 4.5 gigawatts or more in added capacity posed a
         significant risk to the project and the photovoltaic market was already experiencing
         periods of overcapacity.

Loan officials stated that the Program adopted a more conservative approach than its
independent advisors for certain factors such as average sales prices and yield. While we were
able to verify the advisors' projections, Program officials were unable to provide an explanation
or any documentation supporting how updated assumptions considered the deteriorating market
conditions and capacity issues, and Abound's technical performance problems. In addition,
although Program officials stated that assumptions used in the models were fully vetted, we were
unable to verify the Program's assertion because the results of key/critical discussions were not
formally documented as part of the Program's official records.

                                Financial and Industrial Analysis

The Program could not provide evidence that it had conducted ongoing, formal financial and
industrial analysis during the disbursement period, as required by Program policies. In
particular, while the Program had identified the risk that market prices could fall below levels
assumed in projections as significant, it continued to move forward with the project without fully
evaluating significant financial and market changes that subsequently occurred. According to
market reports conducted in 2011, the first half of the year experienced a decline in panel prices
as additional capacity came on line and demand weakened in Europe due to policy changes,
issues that were both previously predicted in the market and credit analyses. Notably, panel
prices dropped by almost 40 percent. In addition, the reports noted that ongoing reductions in
government subsidies in Germany contributed to declining prices leaving the industry with
significant unsold inventories and substantial excess capacity. Signs of these deteriorating
conditions were evident in monthly and quarterly operational reports that Abound submitted to
the Program.

While there was no evidence of ongoing, formal financial analyses conducted by the Program in
the files we reviewed, our analysis of reports from January to September 2011, noted that



Page 6                                                                         Details of Finding
Abound's production exceeded shipments by approximately 22 percent, as shipments were
almost 30 percent below budget. Further, gross margin percentage fluctuated significantly
during the period. This was important because funding under the loan's terms and conditions for
the third manufacturing line was dependent on Abound meeting a set gross margin percentage, a
metric that Abound was unable to attain. The terms of the loan also required Abound to maintain
certain levels of cash reserves, a defined equity contribution position and a defined debt to
project cost ratio.

In response to our review, the Program noted that financial and industry analyses were being
performed. However, officials also stated that the focus during this period was largely on
monitoring of the technical metrics of the project because the company's performance was
primarily based upon resolution of production issues as well as execution of its technical
roadmap. The Program asserted that only limited financial modeling and analyses could be
meaningful at the time based upon the limited level of sales during the build-out phase and it was
never expected that gross margin would provide a meaningful measure of financial performance.
While the Program asserted that analyses were being performed during this period, we found no
evidence of ongoing analyses in the files provided. In addition, we recognize that sales would be
limited during the construction phase, however, it should be noted that the Program established
gross margin percentage as its financial metric because it provided an indication of Abound's
overall financial health.

Program Internal Controls

The issues we identified occurred because the Program had not established an adequate system
of controls. Specifically, the Program had not fully developed policies and procedures for
awarding, monitoring and administering loans. Additionally, the Program had not developed and
implemented a comprehensive records management system necessary to capture the results of its
decision making process or monitoring efforts. Finally, the Program had not adequately staffed
its Portfolio Management function.

                                     Policies and Procedures

The Program had not fully developed policies and procedures for awarding, monitoring and
administering loans. For example:

    •    Although the Program had a policy requiring Board reconsideration when there were
         material changes to the terms and conditions of a loan, we found that the Program had
         not established any guidance for determining the materiality of events occurring
         subsequent to conditional approval warranting reconsideration of a loan by the Board.
         We acknowledge that there is a considerable amount of judgment involved in making
         the determination on whether an event negatively affects a project. However, without
         clear guidance for determining what changes warrant loan reconsideration by the Board,
         the Department is at risk that the Board's crucial role, recommending whether loans
         should be made and determining the terms and conditions needed to protect the
         Government's interest, could be circumvented.




Page 7                                                                        Details of Finding
    •    The Program had not developed formal processes for resolving differences of
         professional opinion to ensure transparency in making decisions. We identified several
         instances in which there were differences of opinion or in which concerns were raised
         regarding Abound's performance. However, we could not determine how the issues
         were addressed due to a lack of documentation. Without a policy, the Department
         cannot demonstrate that it fully evaluated risks associated with the project.

    •    The Program had not developed detailed guidance describing the type and frequency of
         financial and marketing analyses which were required as part of loan monitoring. We
         concluded that the lack of such policies and procedures was a contributory cause for the
         lack of evidence in the files that these types of analyses were conducted during Abound's
         disbursement period or that the Program used available data to trend the financial
         condition of the company.

We also noted that the Program's policies and procedures indicated that projects could be placed
on "credit watch" when an event or deviation from an expected trend had occurred and
monitoring efforts would be increased. Although this option was available, the Program did not
have a formal process in place to put a loan on a "watch list" outside of the annual reporting
cycle and did not describe the additional monitoring procedures that would be applied to projects
on the watch list. Despite ongoing technical and financial problems encountered by Abound,
which should have warranted increased scrutiny, it was not placed on such a list until September
2011 when it failed to meet construction and financial milestones.

                                  Records Management System

The Program had not developed and implemented a comprehensive records management system
necessary to capture the results of its decision making process. We were unable to confirm that
the changes in circumstances between conditional commitment and loan closing were fully and
formally considered due to a lack of documentation. In addition, we were unable to verify the
Program's assertion that the solar expert's concerns were resolved through internal discussions
because the results of deliberations were not recorded. The need for transparency within the
Program was identified in previous Office of Inspector General reviews. In particular, in our
report on The Department of Energy's Loan Guarantee Program for Clean Energy Technologies
(DOE/IG-0849, March 2011), we found that the Program had not adopted a records management
system that imposed structure, consistency, and discipline in the development and retention of
loan documentation. In response to the report, the Program acknowledged the need to develop
and implement a sound records management system to enhance the transparency of the decision-
making process and developed a records management policy.

Additionally, the Program had not developed a comprehensive records management system to
capture the results of monitoring efforts. Due to a lack of documentation supporting the
Program's decision to continue loan disbursements, we were unable to determine whether the
Program had fully evaluated the impact of ongoing technical shortfalls and changes in market
conditions. The Program was in the process of developing database requirements for a records
management system for its Portfolio Management Division when the Abound loan was issued.
Certain modules of the system were up and running in May 2011, however, the modules were
not fully functional.


Page 8                                                                        Details of Finding
                                        Staff Qualifications

Weaknesses in the financial and marketing monitoring of Abound occurred during a period when
the Program was just establishing its Portfolio Management Division, which limited the
availability of qualified staff. In fact, the Division only had three employees overseeing loans —
a newly hired Director and two support contractors who had been transferred from other groups
within the Program. Additionally, based on a review of qualifications and internal email
correspondence, it did not appear that the contractor assigned as the Portfolio Manager for
Abound possessed the skill-set needed to effectively monitor financial and technical
performance. Specifically, we found that this individual had no prior loan management
experience and had a limited background in project finance and financial statement analysis, yet
he was assigned to manage a number of loans totaling over $2 billion. There was no evidence in
the files we reviewed for Abound that financial or industrial analyses, two key responsibilities of
a Portfolio Manager, had been conducted. Further, we noted that prior to leaving the Program,
the Portfolio Manager indicated that he had not completed credit reports for loans under his
purview because he found it to be "a very difficult exercise." During a discussion with Program
officials concerning the Portfolio Manager's performance, an official indicated that the individual
did "what he was capable of doing."

In response to our review, the Program stated that the Portfolio Manager was supported by an
experienced team and was not solely relied upon for exercising professional judgment in the loan
servicing and monitoring of the project. Officials stated that decisions related to the project were
made by senior and experienced management of the Program. However, during the course of
our review, we found no evidence of any formal financial or market reviews being performed,
either by the Portfolio Manager or other Program officials, between loan closing and the event of
default. We were unable to verify the Program's assertions because there was no evidence of
formal reviews and the results of discussions were not captured.

Subsequent Events

In October 2011, the White House Chief of Staff requested an independent review of the
Department's loan and loan guarantee programs for alternative energy projects. The purpose of
the review was to report on the status of the portfolio and make recommendations for
improvement. In particular, the independent reviewer was tasked with making recommendations
for enhancement to ensure effective monitoring and management of the current loan and loan
guarantee portfolio. In addition, the independent reviewer was asked to make recommendations,
if needed, pertaining to early warning systems to identify and mitigate potential concerns on a
timely basis.

We noted that the independent consultant's report, released in January 2012, identified a number
of areas for improvement similar to those outlined in our report. In particular, we noted that the
review identified several areas in which policies and procedures were lacking or vague, and
terms such as "material" or "urgent" were not defined. In addition, the report identified the need
for an early warning system for timely identification and reporting of significant events. In
response to the report, the Department indicated that it had taken a number of actions. For



Page 9                                                                          Details of Finding
example, the Program asserted it had improved its processes in areas such as monitoring, loan
administration, and reporting to take into account industry best practices. Also, the Program
indicated that it had upgraded electronic systems to better automate and standardize data so it
could be reviewed and acted upon in a timely manner.

Additionally, we noted that the Program had made a number of other improvements since it
executed the loan guarantee to Abound. For example, the Program hired additional staff for its
portfolio management function and developed a number of procedures for ongoing monitoring.
In addition, the Program established a Risk Committee to be responsible for reviewing and
making recommendations regarding significant or material actions or events affecting portfolio
assets. Further, the Program implemented a database for capturing the results of its monitoring
efforts.

While the Program had made improvements, we determined that additional actions are needed to
address matters discussed in this, and prior Office of Inspector General reports. Although the
Program had developed some policies for ongoing monitoring, we found that not all aspects of
portfolio management were covered. In particular, the Program had not yet developed policies
related to distressed loan management, loan restructuring, and bankruptcy monitoring. The need
for policies in these areas was identified in previous Office of Inspector General efforts. For
example, in our report on Loan Guarantees for Innovative Energy Technologies (DOE/IG-0777,
September 2007), we found that the Program had not promulgated procedures relating to loan
defaults. Given the fact that three loan guarantee recipients have filed for bankruptcy and a
number of other recipients are experiencing difficulties, we believe policies in these areas are
crucial to the success of the Program.

Further, the Program has been, and continues to be, the subject of Congressional interest.
Notably, in October 2012, the Congressional Committee on Oversight and Government Reform,
based on its ongoing inquiries into the Program, concluded that decisions made by the Program
appeared to have been influenced by external parties. Our review of email correspondence
confirmed that during the period Abound was under consideration, it was apparent the Program
operated under an environment of internal and external pressures to move the loan process along
and increase the number or rate of issued loans.

Path Forward

As a result of the issues we identified, it appeared that the Program did not adequately manage
the risks associated with the Abound loan. We recognize that the Program is faced with the
challenge of balancing the goal of operating a $15 billion loan guarantee portfolio in innovative
technologies that are inherently risky with the Energy Policy Act of 2005's mandate to ensure a
reasonable prospect of repayment. We also recognize that many of the actions taken by the
Program in regard to the Abound loan, such as continued funding and waiver of defaults, were
made in an attempt to salvage the project.




Page 10                                                                        Details of Finding
In light of the recent bankruptcies in the Program, estimated to cost taxpayers over $600 million,
and the significant amount of funding at risk, it is imperative that the Program thoroughly
consider project risks and closely monitor the ongoing technical and financial performance of its
loan recipients. This is especially important because the Program has approximately $34 billion
in remaining loan guarantee authority and over $15 billion in loans remaining to be monitored,
with loan periods of up to 30 years.

RECOMMENDATIONS

Given the significant amount of loan authority remaining, as well as the size of the Program's
portfolio of loans, the Department has an opportunity to ensure a successful path forward.
Therefore, we recommend that the Executive Director, Loan Programs Office:

    1. Evaluate processes for approving and monitoring loan guarantees to ensure changes to
       projects are fully analyzed and results are documented;

    2. Finalize and implement policies and procedures for ongoing monitoring of loans
       including procedures relating to distressed assets and loan defaults;

    3. Develop formal processes for resolving differences of professional opinion including
       documentation requirements, which would provide transparency into the Program's
       decision making process;

    4. Develop guidance on materiality and the types of events that require resubmission to the
       Board to ensure that changes are presented to the Board for consideration prior to final
       loan issuance; and

    5. Ensure that positions are staffed with qualified individuals and properly supervised.

MANAGEMENT COMMENTS AND AUDITOR RESPONSE

Management generally concurred with our recommendations and indicated that it would take or
had already implemented actions to address them. Management stated that it analyzed changes
to projects as part of its due diligence and monitoring processes. Additionally, management
stated that it had developed and implemented policies and procedures for monitoring loans.
Further, management indicated that it would develop procedures on documentation requirements
evidencing resolution of differing opinions. In addition, management stated that it would further
develop its process for making a determination on materiality to ensure that the results are
documented and also develop guidance on when the determination should be subject to further
review by management for concurrence. Finally, management stated that it continues to recruit
and hire qualified personnel of the highest caliber.

We consider management's comments responsive to the report's recommendations.

Management disagreed with several of the report's findings. The following discusses
management's disagreements with our findings and our responses.



Page 11                                      Management Comments and Auditor Response
Management Comment:

Management disagreed with our conclusion that the Program should have consulted with the
Board regarding the change in the credit subsidy. Management stated that the change in credit
subsidy was a result of discussions with the Office of Management and Budget on the
appropriate methodology for valuing collateral and its recommendations regarding how a
recovery should be calculated for budgetary and accounting purposes. Management asserted that
the change in credit subsidy did not reflect a change in the risk of the transaction or its credit
characteristics, and therefore was consistent with the Board's recommendation, requiring no
further consultation.

Auditor Response:

We concluded that the final recovery rate used to calculate the credit subsidy represented a
material change from the credit characteristics previously presented to the Board. Specifically,
the final 8 percent recovery rate used to calculate the credit subsidy was materially different than
the 38 percent rate originally presented to the Board, representing a 78 percent decrease in the
estimated value of the assets available as collateral on the loan. Additionally, this change
increased the credit subsidy — the cost used to protect the Government against the risk of
estimated shortfalls in loan repayments — from approximately $71 million to over $96 million,
putting an additional $25 million of taxpayer funds appropriated by the Recovery Act at risk.

Management Comment:

Management also disagreed with our conclusion that differing professional opinions were not
addressed and resolved. Management asserted that the Independent Engineer's report directly
responded to nine of the eleven issues raised by the internal solar expert and encompassed the
two other remaining issues at a high level in the report's conclusions.

Auditor Response:

While the Independent Engineer's report touched upon some of the solar expert's areas of
concern, as noted in the report, it did not fully cover all of the issues identified by the internal
solar expert. In particular, it did not address concerns related to module certification, soiling of
panels, the stability of Abound's process of record, delays in reporting deviations from plan, or
staffing shortfalls. In addition, we recognize that the overall conclusions of the two experts
differed regarding whether to continue funding at that time. However, as noted in the report, we
concluded that the funding recommendations directly correlated to the experts' differing
perceptions of Abound's ability to successfully overcome its technical shortfalls. Of particular
concern was the internal solar expert's statement that he had serious doubts regarding Abound's
commitment to addressing recurring issues. More importantly, as noted in the report, this was
not the first time the solar expert had raised concerns about Abound's performance and ability to
correct technical issues.




Page 12                                       Management Comments and Auditor Response
Management Comment:

Additionally, management disagreed with the finding that it had not always adequately
documented the assumptions in the financial modeling used to support loan approval and
monitoring. In particular, management noted that the highlighted issues regarding the solar
panel market and panel performance issues were specifically addressed and documented prior to
loan closing.

Auditor Response:

We acknowledge that the Program revised its financial model assumptions between conditional
commitment and loan closing to account for changes in business and market conditions. For
example, it lowered the projected sales prices. In addition, we recognize that the Program
obtained updated reports from its independent advisors and adopted a more conservative
approach than its advisors for certain factors such as average sales prices and yield. However, as
noted in the report, Program officials were unable to provide us documentation supporting how
the updated assumptions fully considered factors such as the deteriorating market conditions and
capacity issues. In particular, we considered the Program's conclusion that photovoltaic solar
panel manufacturers may not be able to raise equity in light of weakened market conditions
concerning because Abound needed to raise a significant amount of equity during the course of
the loan. Additionally, although the initial market report commissioned by the Program had
assessed the potential risk for industry overcapacity to impact Abound as low, an updated market
assessment issued in November 2010, estimated there would be 45 to 50 percent overcapacity in
production globally for the next 3 to 5 years. Further, although Program officials stated that
assumptions used in the models were fully vetted, we were unable to verify their assertion
because the results of key/critical discussions were not formally documented as part of the
Program's official records.

Management Comment:

Finally, management asserted that financial and industry analyses were being performed as
financial and business information was received from the company. Management indicated that
during the 9-month period following loan closing, industry analysis was being done through
outside advisors, the Program's Technical and Project Management Division, and the
Independent Engineer. Management stated that it routinely reviewed the financial model and the
expectations established at loan closing and compared these expectations against actual results
prior to disbursements and had prepared credit reports.

Auditor Response:

As noted in the report, the Program could not provide evidence that it had conducted ongoing,
formal financial and industrial analysis during the disbursement period. The audit team reviewed
documentation available from the Program's portfolio management database, as well as files and
email correspondence maintained for the portfolio manager overseeing Abound during the
disbursement period and found no evidence of ongoing, formal financial or industrial analyses
conducted by the Program during that period. Additionally, as noted in the report, when the



Page 13                                      Management Comments and Auditor Response
Portfolio Manager responsible for monitoring the loan to Abound left the Program in September
2011, he indicated that he had not completed credit reports for loans under his purview.
Therefore, the first formal credit report for Abound was not prepared until after the new project
officer took over and Abound was already in default.

Management's official comments are included in Appendix 4. Management also provided
technical comments that have been addressed in the body of the report, where appropriate.




Page 14                                      Management Comments and Auditor Response
Appendix 1

                               ABOUND TIMELINE OF EVENTS

  Date                                                   Event
February    Application: Abound Solar Manufacturing, LLC, (Abound) submitted an application for a loan to
2009 –      construct and commission thin-film photovoltaic solar panel manufacturing facilities in Colorado
June 2010   and Indiana capable of annually producing up to 840 megawatts of clean renewable energy. The
            Department of Energy's (Department) Loan Guarantee Program (Program) had conducted
            approximately 14 months of due diligence activities during which it identified a number of
            financial, technical and market risks and established corresponding mitigation measures. The
            Program's credit assessment identified that the project was speculative and included significant
            credit risk. Specifically, the Program rated the loan at a risk of 2.96 out of 5.0, which was
            designated an "adequate" risk. Despite the risks identified, the Program concluded that there
            remained a reasonable prospect of repayment on the loan. The assessment recognized that the
            project's capacity for repayment relied on favorable business conditions, achievement of technical
            milestones, and market penetration.


July        Conditional Loan Approval: The Program presented the loan to the Department's Credit Review
2010        Board, which is responsible for recommending approval of a conditional commitment.
            Subsequently, the Board recommended that the Secretary conditionally approve the loan guarantee.
            While the Board recommended approval, according to its minutes, members requested that the
            Program continue to monitor market conditions. The approved loan terms identified certain
            conditions that had to be met before loan closure, including meeting minimum technical metrics,
            funding equity and working capital accounts, and obtaining all required governmental, regulatory,
            environmental and other permits and approvals.


September   Program Identifies Dramatic Changes in Photovoltaic Module Market: An annual review of
2010        another solar manufacturing project (Solyndra, Inc.) conducted by the Program noted that the
            photovoltaic module market had undergone dramatic changes which resulted in downward price
            pressure on solar modules. The review also indicated market risk had been heightened due to the
            reduction of incentives/subsidies in Europe (a key market for Abound). The Program concluded
            that the combination of these factors affected photovoltaic module manufacturers' ability to raise
            capital and called into question the long-term health of the photovoltaic solar module market.
            Because Abound needed to raise a significant amount of equity during the course of the loan in
            order to complete the project, these factors could have a significant impact on the success of the
            project.




Page 15                                                                      Abound Timeline of Events
Appendix 1

October
2010       Program Identifies Performance Shortfalls in Abound Solar Panels: An Independent
           Engineer's report submitted to the Program noted Abound's solar panels were underperforming by
           6 percent below expectations. According to the report, Abound was evaluating several process
           changes to address the shortfalls, which the Independent Engineer expected to be in place by the
           first quarter of 2011. Abound modified its panel efficiency ratings to reflect lower observed field
           performance. This action placed financial pressure on Abound as it resulted in lower sales prices,
           and the need to issue rebates to existing customers at a cost between $2 and $3 million. Abound
           also revised its technical projections and delayed ramp up of its production lines to make process
           changes, which pushed out completion of the project and the time period until it would reach
           positive cash flows by up to 12 months. Because the success of Abound's business plan was
           heavily dependent on its ability to ramp up production quickly to achieve economies of scale,
           delays this early in the project could have long-term implications and be hard to overcome.
           Abound also revised its technical roadmap and pushed out its target of reaching 80 watt modules
           from the end of 2010 to the end of 2011 or early 2012. This was significant because Abound's
           primary competitor was already producing and selling 76 watt modules at the end of 2009.


November   Program Identifies Increased Risk of Overcapacity in the Market: Although the initial market
2010       report commissioned by the Program had assessed the potential risk for industry overcapacity to
           impact Abound as low, an updated market assessment issued in November 2010, estimated that
           there would be 45 to 50 percent overcapacity in production globally for the next 3 to 5 years.
           Further, the updated report lowered the projections for the compound annual growth rate of
           photovoltaic solar panels through 2020 from 12.5 percent to approximately 5.6 percent, a reduction
           of more than 55 percent. Finally, the report identified that a number of major photovoltaic solar
           manufacturers had announced plans to expand their capacity by approximately 10 gigawatts between
           2010 and 2012, which would double global production capacity. These updated projections were
           concerning because the Program indicated that the addition of 4.5 gigawatts or more in added
           capacity posed a significant risk to the project and the photovoltaic market was already experiencing
           periods of overcapacity.


November   Credit Rating Agency Lowers Recovery Rating Estimate: A final credit rating prepared by an
2010       outside credit rating agency lowered Abound's recovery rating estimate, the potential recovery in
           the event of default, from 60 percent to 45 percent. The 25 percent reduction was based on what
           the agency perceived to be Abound's sensitivity to downward pressure in panel pricing, technical
           shortfalls, and its inability to achieve expected conversion efficiency gains during the 18-month
           period it had reviewed. The agency noted that Abound's expectations for product performance had
           decreased significantly, it had been unable to achieve the expected product enhancements outlined
           in its application, and it had drastically lowered its technical projections during the period it was
           under review by the Program. In addition, Abound's average sales price assumptions were
           significantly below those in its application, and the credit agency expected further price pressures
           in the market over the next 3 to 5 years as new technologies scaled up and achieved competitive
           manufacturing costs. Although the credit rating agency's final recovery rating was 45 percent, the
           Program had previously used a more conservative rate of 35 percent in its financial and credit
           analysis supporting its presentation to the Board.




Page 16                                                                      Abound Timeline of Events
Appendix 1


December   Loan Guarantee Executed: The conditions established by the Board at conditional commitment
2010       had been met. Further, the Program had conducted additional due diligence to assess the changes
           in market conditions and technical issues that had occurred since the conditional commitment in
           July 2010, and indicated that it took them into account when conducting its financial and credit
           analyses prior to closing. Program officials stated that the changes in circumstances and outlook
           between conditional commitment and loan closing were analytically reviewed using industry best
           practices including updating financial models and developing sensitivity analyses. Based on these
           analyses, the Program had not considered the changes in market conditions or technical shortfalls
           to be material. In regard to changing market conditions, the Program stated that its original
           financial model assumptions had already been conservative. In regard to technical issues, based on
           the Independent Engineer's assessment, the Program concluded that the panel performance issue
           was temporary in nature and was not expected to have a significant impact on the project's ability
           to repay the loan. Further, Program officials told us that the requirements for disbursements
           outlined in the approved terms and conditions served to limit exposure if Abound was unable to
           achieve its business plan. Based on input from independent advisors and its analyses, the Program
           made the determination that there was still a reasonable prospect of repayment.

           We noted that the Program drastically reduced its recovery rating estimate for the loan to Abound
           from 38 percent to 8.3 percent at loan closing. The Program stated that the reduction was due to a
           change in methodology for modeling liquidation scenarios and was not reflective of the changing
           credit characteristics of the transaction. However, the change in recovery estimate resulted in an
           increase in the credit subsidy allocated to the loan from approximately $71 million to
           approximately $96 million, an increase of approximately $25 million or 35 percent.



January    Program Identifies Larger Panel Underperformance than Previously Reported: The Program
2011       learned that Abound's photovoltaic solar panels were underperforming by as much as 15 percent
           versus the 6 percent reported prior to closing. As a result, Abound reported that its second largest
           customer returned $2.2 million of product and cancelled other orders for December 2010,
           estimated at over $3.8 million or 11 percent of Abound's expected revenue for 2010.


February   Program Suspends Funding: To address shortfalls, Abound made modifications to its
2011       manufacturing process in February 2011, which negatively impacted project plans and delayed
           construction. The Program temporarily suspended disbursements from February to March 2011, to
           evaluate the problems outlined in Abound's year-end report, as well as its revised plans to address
           the issues.


March      Program Conducts On-site Evaluation: The evaluation, performed by the Independent
2011       Engineer, Federal Technical Lead, and the solar expert, highlighted the ongoing problems
           encountered by Abound and confirmed that the technical shortfalls identified prior to loan issuance
           were still occurring. In addition, the review found that the process changes were not fully effective
           and would take longer to implement, further impacting the construction schedule. Additionally,
           the evaluation raised concerns regarding the immaturity of Abound's quality control and testing
           programs. Further, the Program learned that Abound's technical problems included the potential
           for fires from sparks generated by panel materials, which had led to a 10-day shutdown of
           Abound's production. We found no evidence in the information we reviewed indicating that the
           Program was aware of this issue prior to closing.

           The Program's Independent Engineer had previously identified several actions that Abound had to
           successfully complete in order for it to recommend approval of proposed changes to the Program.
           During the on-site visit, the Independent Engineer, along with the Federal Technical Lead and solar
           expert, assessed Abound's progress toward completing the actions. Based on its assessment, the


Page 17                                                                      Abound Timeline of Events
Appendix 1

            Independent Engineer concluded that Abound's plans to address the issues were achievable and the
            project funding should continue. However, the Program's internal solar expert recommended
            additional disbursements not be approved at that time based on Abound's deficiencies. A report
            prepared by the solar expert identified a number of significant issues indicating Abound had major
            problems and noted that Abound did not have an adequate grasp of the severity of its status. In
            addition, the report noted that the solar expert's biggest concern was insufficient attention to
            product quality and poor quality control, which became a major factor in the eventual failure of the
            company.


April       Program Restarts Funding: Based on the Independent Engineer's recommendation, the Program
2011        restarted loan disbursements.


June        Program Determines Lack of Improvement in Panel Performance: An informal review
2011        conducted by the Program's Financial Advisor noted there was no sustained improvement in the
            average watts per panel between April and June 2011, and production remained well below
            expectations established when the loan was issued. Additionally, the advisor noted, at that point in
            time, Abound was not close to achieving metrics for its next loan advance in early September
            2011. In particular, as of June 2011, Abound's average watts per panel was about 5 percent below
            and production was averaging about half of what would be required for the next disbursement.
            Despite the negative trend in Abound's performance, the Program continued to disburse funding to
            the project.


August      Abound Revises Project Plans: Technical issues and quality problems continued to plague the
2011        project through August 2011, when Abound again revised its project plans and lowered projections
            citing unresolved performance issues as the cause. Notably, Abound reduced its sales projections
            by 33 percent and expected cash flow from operations by 60 percent. In addition, Abound once
            again revised its technology roadmap by pushing out its target of achieving 80 watt modules to the
            end of 2012, and delaying the production ramp of its second manufacturing line.


September   Program Suspends Funding: Abound defaulted on its loan terms when it failed to meet financial
2011        and construction milestones as a result of its performance issues, and the Program suspended
            funding to the project. As a result, the Abound loan was placed on "credit watch." The Program's
            policies and procedures indicated that projects could be placed on "credit watch" when an event or
            deviation from an expected trend had occurred and monitoring efforts would be increased.


May 2012    Abound Submits Restructuring Plan: Between October 2011 and February 2012, the Program
            granted four waivers to the default and allowed Abound to use equity funds from restricted accounts
            to continue the project in an effort to overcome technical shortfalls. Following the fourth waiver,
            Abound informed the Program that it was unable to meet loan requirements and lacked sufficient
            funds to achieve project completion, which under the terms of the loan, resulted in default. Abound
            also indicated that it was uncertain as to whether additional equity could be raised in time to avoid
            bankruptcy or liquidation. As a result, Abound submitted a restructuring plan to the Program and
            requested permission to use funding from project accounts in an effort to sell the company. The
            Program approved the plan; however, the sale was unsuccessful.

July        Abound Files for Bankruptcy: In July 2012, Abound filed for bankruptcy, indicating that it
2012        lacked sufficient funds to continue and was unable to raise additional capital to complete the
            project.




Page 18                                                                      Abound Timeline of Events
Appendix 2

                      OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of the audit was to examine the circumstances surrounding the Department of
Energy's (Department) Loan Guarantee Program's approval and administration of the loan to
Abound Solar Manufacturing, LLC, (Abound).

SCOPE

This audit was conducted from October 2012 to April 2014, at Department Headquarters in
Washington, DC. The audit was conducted under the Office of Inspector General Project
Number A13PT008.

METHODOLOGY

To accomplish the audit objective, we:

    •   Reviewed applicable Federal and Department regulations related to the Program;

    •   Reviewed the Program's policies and procedures for evaluating applications, assessing
        project risks, approving loan guarantees, and records management;

    •   Reviewed loan guarantee documentation maintained by the Program, as well as internal
        e-mail correspondence regarding the loan guarantee to Abound covering the period
        February 2009 through July 2012;

    •   Reviewed technical, legal and market assessments submitted to the Program by its
        independent advisors;

    •   Analyzed conditions for loan closing identified in the terms and conditions at approval,
        and the conditions to those identified in loan agreement to determine whether the
        requirements had been modified;

    •   Analyzed monthly and quarterly reports for calendar year 2011 submitted to the
        Program by Abound;

    •   Interviewed Program officials to gain an understanding of the loan guarantee review and
        monitoring processes and to determine the level of interaction with independent
        advisors; and

    •   Interviewed independent advisors to determine their responsibilities in support of the
        Program.




Page 19                                                   Objective, Scope and Methodology
Appendix 2 (continued)

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, we assessed internal
controls and compliance with laws and regulations to the extent necessary to satisfy the audit
objective. We assessed performance measures in accordance with the GPRA Modernization Act
of 2010 and concluded that the Department had established performance measures related to the
Loan Guarantee Program. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our audit. Finally,
we conducted an assessment of computer-processed data relevant to our audit objective and
found it to be reliable.

An exit conference was held with management officials on April 2, 2014.




Page 20                                                     Objective, Scope and Methodology
Appendix 3

                                      PRIOR REPORTS

   •   Special Report on Inquiry into the Procurement of Law Firm Services and Management
       of Law Firm-Disclosed Organizational Conflicts of Interest by the Department of
       Energy's Loan Programs Office (OAS-RA-12-14, August 2012). This audit identified
       opportunities to improve transparency over the Loan Programs Office's management of
       organizational conflict of interest waiver requests. Specifically, the review noted that
       the Loan Programs Office had not deployed a tracking system for managing law firm
       waiver requests and had not documented, in an organized system of records, the
       rationale for denying or approving waiver requests.

   •   Audit Report on The Department of Energy's Loan Guarantee Program for Clean
       Energy Technologies (DOE/IG-0849, March 2011). This audit revealed that the Loan
       Guarantee Program could not always demonstrate, through systematically organized
       records, how it resolved or mitigated relevant risks prior to granting loan guarantees.
       Decision documents summarizing the process did not always describe the actions taken
       by officials to address, mitigate and/or resolve risks. In addition, loan origination files
       were not maintained in the Program's official electronic information repository, which
       according to Federal regulations was to contain key documentation to support actions as
       part of the loan guarantee process. The report noted that the Program had not adopted a
       records management system that imposed structure, consistency and discipline in the
       development and retention of loan documentation.

   •   Audit Report on The Department of Energy's Loan Guarantee Program for Innovative
       Energy Technologies (DOE/IG-0812, February 2009). This report found that while the
       Program had developed and implemented some key programmatic safeguards, it had not
       completed a control structure necessary to award loan guarantees and to monitor
       associated projects. Specifically, the review found that the Program had not finalized
       policies and procedures, formally documented portions of its applicant reviews, and
       formalized procedures for disbursing loan proceeds.

   •   Special Report on Loan Guarantees for Innovative Energy Technologies (DOE/IG-0777,
       September 2007). This report concluded that there were a number of steps that should
       have been taken to foster the success of the Program. These included finalizing a
       staffing plan, developing risk mitigation strategies, implementing and executing a
       monitoring system, and promulgating liquidation procedures.




Page 21                                                                            Prior Reports
Appendix 4

             MANAGEMENT COMMENTS




Page 22                            Management Comments
Appendix 4 (continued)




Page 23                  Management Comments
                                                                    IG Report No. DOE/IG-0907


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                      http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
